Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits




                    ADOPTING BEST PRACTICES CAN
                     IMPROVE IDENTIFICATION OF
                    NONCOMPLIANT EMPLOYERS FOR
                        STATE UI FIELD AUDITS




                             FINAL REPORT




                                                   U.S. Department of Labor
                                                   Office of Inspector General
                                                   Final Report No. 03-99-006-03-315
                                                   Date Issued:
         Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits




                                               TABLE OF CONTENTS


ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

OBJECTIVES, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

       I.    ADOPTING BEST PRACTICES CAN IMPROVE IDENTIFICATION
             OF NONCOMPLIANT EMPLOYERS FOR STATE UI FIELD AUDITS . . . . . . . . . 9

             A. Using Monthly Performance-Based Reports to Manage for Results . . . . . . . . . . . . . . 11

             B.     Selecting Employers Based on Standard Industrial Classification Codes . . . . . . . . . . 11

             C. Convert Blocked Claim Assignments Into Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

             D. Conduct Followup Audits Based On Prior Audit Results . . . . . . . . . . . . . . . . . . . . . 13

             E.     Identify Misclassified Workers Using IRS Form 1099 - Miscellaneous Income
                    Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

             F.     Selective Process Versus Random Sample for Selecting Noncompliant Employers
                    for Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

      II. ETA’S OVERSIGHT OF THE FIELD AUDIT PROGRAM
          CAN BE IMPROVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

             Measuring Field Audit Effectiveness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

APPENDIX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

      A. Agency’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24



U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                                                                i
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits




                                             ACRONYMS


                CY                       Calendar Year

                DLA                      Desired Level of Achievement

                ESM                      Employment Security Manual

                ET                       Employment and Training

                ETA                      Employment and Training Administration

                ETA 581 Contribution Operations Report

                FY                       Fiscal Year

                GPRA                     Government Performance and Results Act

                IRS                      Internal Revenue Service

                ITSC                     Information Technology Support Center

                OIG                      Office of Inspector General

                RQC                      Revenue Quality Control

                SESAs                    State Employment Security Agencies

                SIC                      Standard Industrial Classification

                TPS                      Tax Performance System

                UC                       Unemployment Compensation

                UI                       Unemployment Insurance

                UIPL                     Unemployment Insurance Program Letter

                UIS                      Unemployment Insurance Service




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                         ii
         Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits




                                    EXECUTIVE SUMMARY


BACKGROUND

Enacted over 60 years ago as a Federal-State partnership, the Unemployment Insurance (UI) program
is the Department’s largest income maintenance program. The UI program is administered by State
Employment Security Agencies (SESAs) in 50 states and the District of Columbia, Puerto Rico and the
Virgin Islands under the oversight of the Employment and Training Administration (ETA). The
Unemployment Compensation Trust Fund, which was established to ensure that adequate funding is
available to pay unemployment compensation and provide reemployment services to unemployed
workers, is financed through employers’ quarterly payroll tax assessments.

As might be expected, not all employers voluntarily report all UI-covered wages or pay their fair share
of UI taxes as required by law. The field audit function carried out by the SESAs is a vital tool to
ensure that American workers are properly covered by UI and that employers pay their fair share of UI
tax. Over 90 percent of the SESAs agreed that the search for “hidden wages” (employee wages not
reported to SESAs by employers) was among the top concerns addressed by their field audit
programs.

OBJECTIVES AND SCOPE

We conducted an audit to assist ETA and the states in identifying ways to get the best possible results
from their scarce field audit resources. We audited a sample of 12 states that placed high, medium and
low in our analysis of “net tax contributions returned per audit hour.” Variations among states ranged
from a negative $8 to a positive $241 per hour.

Our objectives were to:

     C     identify the best field audit practices used by the top performing states so that these practices
           could be encouraged in the other states (see Chapter I), and

     C     examine ETA’s oversight of the field audit program to understand how the program is
           monitored, what quality assurance controls are in place, and how ETA measures and evaluates
           the program’s effectiveness. (See Chapter II.)




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                     Page 1
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits



FINDINGS AND RECOMMENDATIONS

I. Adopting Best Practices Can Improve Identification of Noncompliant
   Employers for State UI Field Audits

We found significant differences between the practices employed by the top performing states
compared to those used by the states with less effective field audit programs. The top performing
states’ audit management focused primarily on achieving the highest possible results per audit hour
spent. They did this mostly by designing ways to select employers for audit that had the highest
likelihood of noncompliance, rather than simply selecting employers at random. Conversely, the states
reporting the lower results per audit hour focused primarily on achieving a production goal of
auditing 2 percent of the state’s contributory employer population each year (referred to as the “audit
penetration rate”). Several of these states’ managers believed that the primary mission of the field audit
program was to “educate employers” to properly complete their UI tax returns. Audits were mostly
selected at random or by other methods unrelated to the probability of noncompliance.


Following is a list of the best practices employed by the top performing states. These were often used
in combination with one another.

     ! Use internal performance-based reports to manage for results.

     ! Select a significant percentage of employers based on Standard Industrial Classification (SIC)
       codes that identify employers with the highest probability for noncompliance.

     ! Implement a blocked claims audit program that encourages the conversion of field audit
       investigations into audits. In 4 of the 12 states we visited, we found that contributions from
       blocked claims and other audits resulted in approximately $8.5 million in contributions.

     ! Implement an effective audit followup program that periodically reviews previously audited
       employers who had misclassified workers.

     ! Implement a misclassified workers identification program using Internal Revenue Service (IRS)
       Form 1099, Miscellaneous Income data, to identify employers who misclassify workers.

     ! Select no more than 10 percent of employers at random from the total universe.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                   Page 2
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits



II. ETA Oversight of the Field Audit Program

We found that ETA uses internal computed measures and a comprehensive internal performance
system called the Tax Performance System (TPS) to monitor the quality of states' field audit programs.
To better assess state performance, ETA should align these measures to reflect what the states and
OIG believe is the most important outcome of the program -- the identification of hidden wages.

The Unemployment Insurance Service (UIS) needs to ensure that states operate the most effective field
audit programs possible using the scarce resources that are available. UIS also needs to ensure that the
TPS program continues to gather data to monitor and improve the productivity and quality of field audit
programs.

We recommend that the Assistant Secretary for Employment and Training require UIS to implement the
following actions:

     ! encourage the SESAs to implement the best practices identified in this report, and

     ! modify existing performance measures by establishing new benchmarks that measure the
       effectiveness of states in selecting noncompliant employers for audit and identifying hidden
       wages.

By far the most powerful tool that we noted for identifying misclassified workers and searching for
hidden wages was the use of IRS Form 1099-Miscellaneous Income data. We recommend that the
Assistant Secretary for Employment and Training direct the UIS to:

     ! develop and implement a nationally-negotiated agreement with the IRS to provide SESAs
       access to IRS Form 1099, Miscellaneous Income data, and develop a software program to
       analyze IRS Forms 1099 information for the SESAs.

The Office of Inspector General (OIG) would be happy to assist UIS in this effort.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                   Page 3
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits




AGENCY’S RESPONSE.

ETA responded to our draft report on March 19, 1999. The entire response is included in Appendix A
at the end of this report. UIS has taken action to promptly resolve five of our eight audit
recommendations. Of the five resolved recommendations, one is considered closed and four remain
open pending the completion of actions which will close the recommendations.

ETA did not concur with three of our recommendations concerning (1) limiting random selection to no
more than 10 percent, (2) establishing benchmarks for computed measures item number 1, “percent of
change in total wages resulting from audit” and item number 3, “the percent of total wages audited
(annualized),” and (3) deemphasizing the audit penetration rate by granting waivers of the 2 percent
requirement to those states that achieve the benchmarks established for measures numbers 1 and 3.
These unresolved recommendations will be addressed in ETA’s formal resolution process.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                   Page 4
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits




                                          BACKGROUND


The Unemployment Compensation Trust Fund was established to ensure that adequate funding is
available to pay unemployment compensation and provide reemployment services to unemployed
workers. The Trust Fund is primarily financed through employers’ quarterly payroll tax assessments.
As might be expected, not all employers voluntarily report all UI-covered wages or pay their fair share
of UI taxes as required by law.

During Fiscal Year (FY) 1997, the program paid approximately $20 billion in benefits to over
8 million individuals and collected about $23 billion in taxes from employers. Over the history of the
program, coverage has expanded so that 97 percent of all wage and salary earners are now covered by
the UI program. Excluded from UI coverage are self-employed individuals.

In 1988, DOL initiated Revenue Quality Control (RQC) to cover UI tax operations. RQC was
designed to produce information helpful to state UI managers in identifying problems. Also, RQC will
serve as a vehicle for Federal oversight. In 1993, 52 SESAs excluding the Virgin Islands began
voluntary implementation of RQC.

UI Program Letter (UIPL) No. 32-94 announced the schedule for full implementation of the RQC
program. RQC included revised tax measurements criteria using data from the ETA 581,
Contributions Operations Report, and replaced the Quality Appraisal Measures then used to assess
state UI tax operations. The balance of the RQC (system reviews, acceptance sampling, and methods
surveys) became mandatory January 1, 1996.

UIS has provided guidelines that emphasize using criteria to select employers for audit based on the
greatest probability of noncompliance but with some random components. Part V,
Section 3679 of the Employment Security Manual (ESM) reads: “States are encouraged to maintain
audit selection criteria that include indices that reflect potential noncompliance such as high
employee turnover, sudden growth or decrease in employment, type of industry, location (geography)
of employers, prior reporting history, results of prior audit and adjudicated determinations. To ensure
that all employers are included in the audit selection process, States are encouraged to randomly select
10 percent or more audit assignments from the total universe of contributory employers.” [Emphasis
added.]




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                   Page 5
         Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits




                      OBJECTIVES, SCOPE AND METHODOLOGY


OBJECTIVES

The major objectives of this audit were to:

     C        identify the best field audit practices used by the top performing states so that these practices
              could be encouraged in the other states, and

     C        examine ETA’s oversight of the field audit program to understand how the program is
              monitored, what quality assurance controls are in place, and how ETA measures and evaluates
              the program’s effectiveness.


SCOPE AND METHODOLOGY

From August to October 1998, OIG visited 12 states to identify the best practices being used. We
chose the 12 states based on analysis of their responses to an Internet survey questionnaire we
developed and comparative analysis of nationwide data obtained from UIS for Calendar Year (CY)
1997. We divided the states into three strata according to 1997 net contributions per audit hour and
percentage of change audits and judgmentally selected states from each of the strata. Five states were
selected from the highest stratum, three from the middle , and four from the lowest. Throughout our
audit we worked closely with UIS and SESA UI field audit officials in planning, developing, and
executing the audit program.1




          1
          Two of the states in the highest stratum reported a portion of their field audits on the ETA 581
that did not meet the definition of an audit as described in the ETA 581 instructions. OIG was able to
recalculate one state’s standing by eliminating the portion of the field audits that should not have been
reported on the ETA 581. This state remained in the highest stratum. The other state did not have
enough data available for OIG to recalculate an exact standing. However, on a conservative basis, it
would have dropped out of the top 15 states and into a lower stratum. Thus, we replaced this state
with the next highest-ranking state.


U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                        Page 6
         Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits



We performed the following procedures to achieve our objectives:

     S     interviewed UIS personnel, obtained and reviewed the RQC/TPS field manuals, ET
           Handbook No. 407, the ESM, net contributions per audit hour ratios for CY 1996 and 1997,
           ETA 581 reports, and Field Audit computed measures prepared by UIS for the calendar
           years 1993 to 1997.

     S     obtained and reviewed the Government Performance and Results Act (GPRA) and ETA’s 5-
           year strategic plan and its performance plan. (Performance reports describing agencies’
           success in meeting GPRA goals and objectives will not be released until the year 2000);

     S     consulted with officials from two states, the UIS, and the Information Technology Support
           Center (ITSC) for the development of the Internet survey questionnaire, and analyzed the
           responses received from 52 SESAs;

     S     stratified SESAs into three strata based on net contributions per audit hour and judgmentally
           selected the SESAs from each strata for our onsite audit work;

     S     developed and performed audit procedures that included a review of the SESAs’ TPS
           acceptance sampling and analysis of data reported to UIS on the ETA 581, and developed a
           detailed interview questionnaire related to state field operations and practices; and

     S     conducted a telephone followup of the 40 SESAs not visited concerning their field audit
           operations and summarized statistical information obtained from the followup.

This audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                     Page 7
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits




                        FINDINGS AND RECOMMENDATIONS


The primary objective of the field audit function is to promote and verify employer compliance with
state laws, regulations, and policies. UIS believes the following will accomplish successful completion
of their primary objective: (1) identify employer noncompliance, (2) direct audit selection at
noncompliance, (3) maintain a defined level of audit production, and (4) ensure that the field audits meet
the key requirements of the field audit function section of the ESM.

We found significant differences between the practices employed by the top performing states
compared to those used by the states with less effective field audit programs.

!    The top performing states’ audit management focused primarily on achieving the highest possible
     results per audit hour spent. They did this mostly by designing ways to select employers for audit
     that had the highest likelihood of noncompliance, rather than simply selecting employers at random.


!    Conversely, the states reporting the lower results per audit hour focused primarily on
     achieving a production goal of auditing 2 percent of the state’s contributory employer population
     each year (referred to as the “audit penetration rate”). Several of these states’ managers believed
     that the primary mission of the field audit program was to “educate employers” to properly
     complete their UI tax returns. Audits were mostly selected at random or by other methods
     unrelated to the probability of noncompliance.

SESAs can improve the effectiveness of their UI field audit programs by identifying employers most
likely not in compliance with state UI laws and focusing field audit resources on them. States that direct
their resources towards employers not in compliance increase their chances of discovering misclassified
workers and hidden wages.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                   Page 8
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits



I.   ADOPTING BEST PRACTICES CAN IMPROVE IDENTIFICATION OF
     NONCOMPLIANT EMPLOYERS FOR STATE UI FIELD AUDITS

In four of the states in the highest stratum we visited, we found that contributions from blocked claims
and other audits resulted in approximately $8.5 million in contributions. A significant portion of these
dollars and audits were not reportable on ETA’s 581 report for 1997. Despite the fact that these states
were not allowed to receive credit for an audit on the ETA 581, this did not deter them from
performing audits which identified noncompliant employers.

Following is a list of best practices employed by top performing states. These were often used in
combination with one another.

A. Monthly internal performance-based reports were utilized to manage for results.

B.   A significant percentage of selective audits were performed based on SIC codes that identify
     employers with the highest probability for noncompliance.

C. A blocked claims audit program was used to convert non-audit assignments into field audits
   provided that all other ESM requirements are met as outlined in Part V, Section 3675.

D. An effective audit followup program was used which performed a review 2 years after a closed
   audit on employers that were found to have misclassified workers.

E.   A misclassified workers identification program using IRS Forms 1099, Miscellaneous Income
     data, which covered all quarters of the calendar year in which the issue occurred.

F.   No more than 10 percent of field audits performed were randomly selected from the total universe
     of contributory employers.

The following chart shows a comparison of best practices based on the 12 states we visited.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                   Page 9
              Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits




                     COMPARISON OF FIELD AUDIT BEST PRACTICES

                                                          NUMBER OF STATES VISITED BY STRATA
          BEST PRACTICE
                                                         HIGH                       MIDDLE                  LOW
                                                      (5 STATES)                  (3 STATES)            (4 STATES)
1. Managing for Results                       X      X                    X

2. Selective Process Using SIC Codes          X      X      X     (*)     X      X      X    X

3. Blocked Claims Audits                      X      X      X      X

4. Followup on Change Audits                         X      X      X

5. IRS 1099 - MISC Analysis                   X

6. 10% or Less Random Sample                  X             X             X      X      X    X
                                 1997 NET CONTRIBUTIONS PER AUDIT HOUR

Return per Audit Hour ($) (**)               241     75     37     24     18     8      6    5      3      2     (2)   (8)




       (*) This state uses a 90 percent random sample and 10 percent selective process. However,
       80 percent of the state’s net contributions resulted from the 10 percent selective process.

       (**) Source of this data was UIS.




       U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                  Page 10
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits



A. Using Monthly Performance-Based Reports to Manage for Results

Our audit determined that three states in the top stratum had effectively used internal reports to manage
their programs. Top performing SESAs use monthly internal reports to calculate and monitor field audit
performance to focus on results such as the percentage of change audits found (defined as audits
resulting in the discovery of wages or taxes not previously reported or reported incorrectly by the
employer). Conversely, none of the states in the middle or lower strata used monthly performance-
based reports to effectively manage their field audit programs.

For example, one state used internal reports to analyze each field audit by SIC code, whether
misclassified workers were found, or if the audit resulted in a change audit. Another state used internal
reports to identify the number of change audits found. The number of change audits found is a means
for determining if employers are misclassifying workers. It can be used for comparison among states
with different taxable wage bases or tax rates.

B. Selecting Employers Based on Standard Industrial Classification Codes

The ESM, Part V, Section 3679, encourages states “. . . to maintain audit selection criteria that include
indices that reflect potential noncompliance such as high employee turnover, . . . type of industry,
location of employers, prior reporting history, results of prior audits. . . . ”

States can better identify employers not complying with UI tax laws by using certain proven selection
techniques for audit. An effective selection technique used by SESAs includes selecting employers
from SIC codes based on analysis of completed field audits. Selection by SIC codes is a technique
used by many states to identify employers with the highest probability for noncompliance. The SIC
code is the statistical classification standard underlying all establishment-based Federal economic
statistics classified by industry.

Seven of the 12 states we visited used SIC codes to some degree in their selection process. Two
states in the middle stratum and one in the highest used the SIC codes as their primary method of
selection. Three in the highest stratum and one in the middle used SIC codes in combination with other
selection techniques. Two of these states, both in the highest stratum, analyzed prior audit results on an
annual basis to identify SIC codes for selecting employers for audits. For example, one of them
analyzed prior audit results using the following criteria to identify SIC codes: employers that in the past
produced an average yield per audit of $1,000 or greater and had an audit change ratio of 50 percent
or more were used to select employers for audit.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                  Page 11
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits



In addition, we found that two other states that used SIC codes had not analyzed their audit results in
over 3 years. Another state used SIC codes based on a hunch, rather than past results. The three
states that used SIC codes, but did not analyze prior audit results on an annual basis, were in the middle
stratum. To ensure that SIC codes are an effective tool, analysis should be performed on an annual
basis.

The four states in the bottom stratum primarily use random sampling to identify employers for audit.

C. Convert Blocked Claim Assignments Into Audits

During our audit of the 12 SESAs, we found some states were not performing blocked claims audits
because states could not receive credit for these audits toward meeting the “percentage of contributory
employers audited” and such work was not reportable on the ETA 581.

A blocked claim is a claim for benefits whose employment status or wage credits are being questioned.
If not resolved by claim representatives, such claims are referred to field audit for investigation and
resolution. The investigation may result in a field audit.

Some blocked claims audits did not meet the ESM definition, which states in Part V,
Section 3675 “An audit must cover a minimum of four (4) consecutive quarters for which reports have
been submitted by the employer, except registered (active) or out of business (inactive) employers who
at the time of the audit have operated less than four quarters.”

In 4 of the 12 states, all in the highest stratum, contributions from blocked claims and other audits not
reportable on the ETA 581 resulted in approximately $8.5 million in contributions. Two of these
four states reported their results on the ETA 581. When asked why and these states explained that
they had performed all the TPS requirements and felt they deserved recognition for their efforts.

In addition, we contacted the remaining 40 states by telephone to gather information concerning
blocked claims audits and comments on UIPL No. 03-99, which proposed revisions to the field audit
policy outlined in ESM and to solicit comments on those recommendations. Twenty-four of the 40
SESAs responded it will be possible to track the dollars recovered from blocked claims audits. On the
other hand, the most frequent reasons given as to why SESAs could not track the dollars recovered
were the need for (1) programming assistance and (2) additional staff to assist with the record keeping
requirements.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                  Page 12
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits



D. Conduct Followup Audits Based on Prior Audit Results

Three states in the highest stratum incorporated followup audits as part of their selection process for
identifying employers for audit. Conducting followup audits is an audit selection technique that uses
readily available information (prior audit results) without the need for additional resources. For
example, one state in the highest stratum identified all field audits that resulted in $500 or more of taxes
assessed as criteria for selecting an employer to be scheduled for a future audit. The followup audit
then becomes part of the planned workload 2 years in advance.

In addition, this state found previously audited employers continued to improperly classify employees as
independent contractors. For the 12-month period ending May 1998, 61 percent of this state’s
followup audits resulted in a tax change. Consequently, 30 percent of these audits produced net
contributions that warranted yet another audit (to be performed in 2 years).

Another state uses a combination of factors in its selection process which consists of prior audit results,
SIC codes, and quarterly payroll variations. Based on these factors employers are assigned points.
Employers with the highest point total are selected for a followup audit.

On the other hand, states in the lower stratum do not always analyze prior audit results or conduct
followup audits on noncompliant employers. Therefore, they are not selecting those employers with
greatest probability of noncompliance as encouraged by ESM, Part V, Section 3679.

E. Identify Misclassified Workers Using IRS Form 1099 Miscellaneous
   Income Data

The issue of misclassification of workers arises when an employer classifies a worker as an independent
contractor versus an employee. By classifying the person as an independent contractor, the employer
avoids paying Social Security, Federal and state unemployment taxes, workers’ compensation, pension
costs, and health insurance on the individual. Thus, an employer has an economic incentive to
misclassify.

Employers use IRS Form 1099, Miscellaneous Income, to report compensation paid to independent
contractors. The form is filed annually with IRS. SESAs’ requests for access to IRS Form 1099
Miscellaneous Income data are generally denied unless a SESA has a signed data sharing agreement
with the IRS. This denial is because of Internal Revenue Code Section 6103 pertaining to
confidentiality and disclosure restrictions related to release of this information.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                  Page 13
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits




Only one of the SESAs we visited used the IRS Form 1099 data to identify misclassified workers.
However, even if access were available, 11 of the states we visited stated they would require some
programming assistance to extract Form 1099 Miscellaneous Income data from the total universe of all
Forms 1099 before they could use the data in a productive manner.

The magnitude of underreported taxable wages in one state was addressed in a February 1990 study
published by Paul L. Burgess for the Illinois Department of Employment Security entitled Missing UC
Tax Revenue: How Much? How to Find It? This study found that during the 1987 tax year, $49.9
million in contributions were due from $1.45 billion in unreported taxable wages. Over two-thirds of
reporting errors found in the state were due to (1) errors in determining independent contractor status
or (2) failure to report casual/part-time workers. The results of this study relate specifically to the State
of Illinois.

The 12 SESAs we visited all agreed that they would use IRS Form 1099 data. In addition, 35 of the
remaining 40 SESAs who responded to OIG’s telephone survey conducted after our onsite visits also
indicated they would use this data to identify misclassified workers. OIG believes that one of the most
powerful tools available is analysis of IRS Form 1099 Miscellaneous Income data.

F. Selective Process Versus Random Sample for Selecting Noncompliant
   Employers for Audit

The ESM, Part V, Section 3679 states “To ensure that all employers are included in the audit selection
process, States are encouraged to randomly select 10% or more audit assignments from the total
universe of contributory employers.”

In the Internet survey questionnaire, we asked all SESAs to identify their method for selecting
employers for audit. After sorting the states by their 1997 net contributions per audit hour ratio, we
compared the top 15 and bottom 15 out of 52 SESAs to determine how they selected employers for
audit. Seventy-three percent of the top 15 SESAs used a selective process while 73 percent of the
bottom SESAs used random sample.

The following chart shows nearly three-fourths of states ranked in the top 15 use a selective method to
select employers for audit.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                  Page 14
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits




                  Comparison Between Using a Selective Process vs a Random
                     Sample (Ranked by Net Contributions Per Audit Hour)
                              For Selecting Employers for Audit



                          Selective: 11 - 73%                                   Selective: 4 - 27%




                                           Random: 4 - 27%   Random: 11 - 73%




                          Top 15 States                      Bottom 15 States




Our audit determined that the most effective states select employers for audit by using selective criteria
based on the greatest probability of noncompliance with UI tax laws and limiting the random percentage
of employers selected. Four states in the highest stratum we visited used a selective process. The fifth
state used a 90 percent random sample and 10 percent selective process. However, 80 percent of the
state’s net contributions in 1997 resulted from the 10 percent selection process.

In summary, we found that random selection is the least effective of the employer selection methods.
All four states in the lowest stratum we visited used random selection as their selection technique. Two
of these states believe that their mission is to “educate employers.” We believe the best practice for
ensuring that the educating of employers is conducted effectively is to select noncompliant employers
for audit.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                   Page 15
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits



RECOMMENDATIONS:

We recommend that the Assistant Secretary for Employment and Training direct the UIS to encourage
SESAs to:

     1. use monthly internal performance-based reports to calculate and monitor program
        performance in terms of number of misclassified workers identified, and/or the percentage of
        change audits found versus focusing only on the audit penetration rate,

     2. select which employers to audit by using selective criteria based on the greatest probability of
        noncompliance with UI tax laws, identified by SIC codes,

     3. develop an effective blocked claims audit program ranging from investigations to full scope
        TPS audits,

     4. analyze the results of completed field audits and schedule followup audits when warranted and
        annually update their audit selection criteria, and

     5. select no more than 10 percent of employers at random from the total universe.


                                           *    *    *    *   *   *


By far the most powerful tool that we noted for identifying misclassified workers and searching for
hidden wages was the use of IRS Form 1099-Miscellaneous Income data. We recommend that the
Assistant Secretary for Employment and Training direct the UIS to:

     6. develop and implement a nationally-negotiated agreement with the IRS to provide SESAs
        access to IRS Form 1099 Miscellaneous Income data and develop a software program to
        analyze IRS Forms 1099 information for the SESAs.

The OIG would be happy to assist UIS in this effort.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                  Page 16
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits




AGENCY’S RESPONSE

     OIG Recommendation 1. UIS agrees that maintaining a count of misclassified workers
     discovered in audits has value. Revisions (effective January 1, 1999) have been made to the Field
     audit portion of the ESM that establishes the procedures which will enable the states to begin
     reporting this information on Form 581. Revisions to Form 581 and the ET Handbook No. 401
     are now in progress. Actual reporting of the misclassified workers is scheduled to begin January
     1, 2000.

     OIG Recommendation 2. UIS agrees that SIC codes should be used in the selection of some
     audits but not all audits. Section 3693 C of the ESM already encourages states to use “. . . the
     employer’s size, industry code and location in the selection of audits.” However, states are not
     required to follow these recommendations and many do not.

     OIG Recommendation 3. UIS agrees and many states favor using blocked claim assignments
     for leads in the selection of audits. Therefore, the ESM was revised (effective January 1, 1999) to
     allow full scope TPS audits to be conducted on blocked claims with minor restrictions. UIS
     expects several states to begin performing these audits in the
     year 1999.

     OIG Recommendation 4. UIS agrees and, as explained in OIG Recommendation 2 above,
     ESM 3693 C encourages states to “. . . collect and utilize audit data to evaluate individual and/or
     overall audit performance.” Also, it states that “Analysis of past audit program results should be a
     prominent factor in the ongoing selection of employers for audit.”

     OIG Recommendation 5. UIS does not agree that random selection should be limited to only
     10 percent. UIS and many states believe that random auditing of employers establishes a
     presence in the employers community and has a deterrent effect.

     OIG Recommendation 6. UIS agrees that the IRS Form 1099 Miscellaneous Income data is
     the best source for discovering misclassified workers. This data should be restricted to only Form
     1099s that show income in box 7, Nonemployee compensation. UIS welcomes assistance from
     OIG in gaining access to this important and useful data.

     AUDITOR’S CONCLUSIONS

     OIG concurs with UIS’ response to recommendation 1 and considers it resolved. To close this
     recommendation, we are requesting a copy of the final revisions to Form 581 and ET Handbook



U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                  Page 17
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits



     No. 401 pertaining to reporting of misclassified workers.




     OIG concurs with UIS’ responses to recommendations 2 and 4 and considers them resolved. We
     believe these recommendations are critical for states to have an effective selection technique to
     identify potential noncompliant employers. To close these recommendations, OIG is requesting
     documentation that indicates UIS has reemphasized Section 3693 C of the ESM, which
     encourages states to employ these techniques.

     Based on UIS’ concurrence and corrective action taken with recommendation 3, we consider it
     resolved and closed.

     OIG disagrees with UIS’ response to recommendation 5, limiting random selection to only 10
     percent. We believe that random selection must be limited as explained in our report. However,
     we understand your concern and are open to suggestions as to a suitable percentage. Therefore,
     this recommendation is considered unresolved and will be addressed in the ETA’s formal
     resolution process.

     OIG concurs with UIS’ response to recommendation 6, and considers it resolved. We agree that
     under the present arrangement, many SESAs find that the burden imposed by the IRS constraints
     on keeping the information confidential, should not outweigh the benefits derived by the SESAs to
     improve their ability to identify misclassified workers. Therefore, OIG looks forward to assisting
     UIS in this effort to gain access for the SESAs to IRS Form 1099, Miscellaneous Income Data,
     and developing a software program to analyze IRS
     Form 1099 information for SESAs.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                  Page 18
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits



II. ETA’s OVERSIGHT OF THE FIELD AUDIT PROGRAM CAN BE
    IMPROVED

We found significant improvements in the quality of field audits due to the implementation of the TPS,
formerly RQC. However, our audit shows that UIS is not requiring SESAs to adhere to the field audit
program’s subobjectives and that improvements are needed to ensure compliance.

Measuring Field Audit Effectiveness

UIS uses three computed measures which are based on ETA 581 data routinely reported by SESAs.
However, UIS has not established a benchmark to measure states’ field audit program effectiveness.
UIS has established one computed measure in the field audit program for production, but has not
established any quantifiable benchmarks to consistently measure program effectiveness for the states.
Because benchmarks were not established for all three measures, states inadvertently emphasized
achieving the one measure that had a Desired Level of Achievement (DLA). A majority of the states
we visited are, in effect, using the 2 percent DLA for production as a measure of program effectiveness.

UIS has established subobjectives to achieve the overall objective of the Field Audit program, which is
to promote and verify employers’ compliance with state laws, regulations, and policies. Listed below
are three of the four subobjectives related to audit selection and production:

     ! identify employer noncompliance,

     ! direct audit selection at noncompliance, and

     ! maintain a defined level of audit production.

To evaluate the achievement of the above subobjectives, UIS has established three computed
measures:

     1. percent of change in total wages resulting from audit,

     2. percent of contributory employers which are audited, and

     3. percent of total wages audited (annualized).




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                  Page 19
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits



The computed measures listed above are generated based on data routinely reported by SESAs on the
ETA 581. The data is converted into three indicators by the RQC Automated Data Processing (ADP)
system. Computed measure No. 2, “percent of contributory employers audited,” is the only
computed measure with a defined DLA percentage. Since FY 1993, UIS has required all SESAs to
audit 2 percent of contributory employers. The 2 percent DLA is also referred to as the audit
penetration rate. However, for the remaining two computed measures, UIS has not established a DLA
percentage in order to measure SESAs’ effectiveness.

Our audit disclosed that 7 of the 12 states visited – – all middle and low performers – – focused on
meeting the 2 percent audit penetration rate as their primary method for evaluating their field audit
program effectiveness. Two states believed that their main objective is to educate employers. OIG
believes Computed measure No. 2 does not measure the effectiveness of the states’ field audit
program. ET Handbook No. 407, Chapter 7, Revenue Quality Control states that the rationale for
Computer measure No 2. is to provide a measure of SESA audit production.
OIG believes that Computed measures No. 1, “percent of change in total wages resulting from
audit” and No. 3 “percent of total wages audited (annualized),” can be used to measure program
effectiveness.

UIS’s rationale for computed measure No. 1, “percent of change in total wages resulting from
audit,” is to encourage the search for misclassified workers and to assess whether SESAs are targeting
their audits to maximize the discovery of improper employer reporting.

Our analysis of Computed measure No.1 for CY 97 found that 8 of the SESAs in the top 15 obtained
a 4 percent or above change in total wages. However, only 1 of the SESAs in the bottom 15 obtained
a 4 percent or above change. Establishing a benchmark will help ensure that SESAs are meeting the
objective to search for misclassified workers and maximize the discovery of improper employer
reporting.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                  Page 20
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits




                                  Analysis of Computed Measures
                                          Percent of Change in
                                              Total Wages


                               8 of 15 > 4% 53%

                                                                           1 of 15 > 4% 7%
                                                       14 of 15 < 4% 93%

                                7 of 15 < 4% 47%




                          Top 15 States                Bottom 15 States




ET Handbook No. 407, Chapter 7, Revenue Quality Control, states in the rationale for Computed
measure No 3, “the percentage of total wages audited (annualized),” that it is less time-consuming
to audit small employers and that a simple employer penetration rate measure encourages small
employer audits. A higher employer penetration rate measure would encourage audits of larger firms
and have a greater impact on the SESA’s trust fund.

ESM, Part V, Section 3679 defines a large employer as one who reports wages paid to 100 or more
individuals or an employer reporting at least $1 million in taxable payroll. OIG believes that the current
definition of a “large employer” permits states to exclude their truly large employers from their universe
of employers to audit. Based on the current definition, a state may substitute a smaller employer that
meets the above definition for a larger one. Therefore, states do not always audit their largest
employers, choosing instead to substitute smaller, less time-consuming employers for audit.

Our analysis of Computed measure No. 3, “the percent of total wages audited (annualized),” for
CY 97 found that 8 of the top 15 SESAs were at 2 percent or above. However, only 2 of the bottom
15 SESAs were at 2 percent or above. However, a numerical benchmark has not been established
for Computed measure No. 3. Establishing a benchmark will help ensure that SESAs are meeting the
objective to encourage audits of larger employers which have a greater impact on the SESA’s trust



U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                  Page 21
        Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits



fund.



                                    Analysis of Computed Measures
                                        Annualized Percentage of
                                         Total Wages Audited


                                8 of 15 > 2% 53%
                                                                             2 of 15 > 2% 13%


                                                         13 of 15 < 2% 87%
                                  7 of 15 < 2% 47%




                             Top 15 States                Bottom 15 States




RECOMMENDATIONS:

We recommend that the Assistant Secretary for Employment and Training direct the UIS to:

     1. establish benchmarks for Computed measures number 1, “percent of change in total wages
        resulting from audit,” and number 3, “the percent of total wages audited (annualized),” and

     2. deemphasize the audit penetration rate by granting waivers of the 2 percent requirement to
        those states that achieve the benchmarks established for measures numbers 1 and 3, per the
        above recommendations.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                   Page 22
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits



AGENCY’S RESPONSE

     OIG Recommendation 1. UIS does not agree that benchmarks should be established for
     computed measures item number 1, “percent of change in total wages resulting from audit” and
     item number 3, “the percent of total wages audited (annualized).” UIS believes it is still too early
     in the TPS evaluation process to establish benchmarks. Currently, UIS is assessing preliminary
     data that has been gathered during 4 years of TPS experience.

     OIG Recommendation 2. UIS does not agree with the recommendation since UIS is opposed
     to the establishment of benchmarks and the waiver concept. UIS believes the use of a benchmark
     to encourage performance of audits on very large employers is desirable, and it is also desirable to
     make contact with the maximum number of employers in the employer community.

AUDITOR’S CONCLUSIONS

     OIG disagrees with UIS’ response to recommendation 1, that benchmarks should be set for
     computed measures 1 and 3. We did not recommend that benchmarks for computed measures
     numbers 1 and 3 be established as a UI Performs Tier I measure. However, in order for the
     SESAs to achieve the overall objective of the Field Audit program, which is to identify employer
     noncompliance and direct audit resources at noncompliance, UIS needs benchmarks to monitor
     effective state performance. UIS should assess the trends over the last 4 years for these two
     indicators and consider establishing a minimum standard for the states to measure their
     effectiveness. Therefore, OIG considers this recommendation unresolved and this unresolved
     recommendation will be addressed in ETA’s formal resolution process.

     OIG disagrees with UIS’ response to recommendation 2, pertaining to establishing benchmarks as
     explained above. We are open to suggestions for deemphasizing the
     2 percent audit penetration rate as a SESA’s method for measuring effectiveness, versus that of
     granting a waiver. OIG considers this recommendation unresolved and this unresolved
     recommendation will be addressed in ETA’s formal resolution process.




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                  Page 23
       Adopting Best Practices Can Improve Identification of Noncompliant Employers for State UI Field Audits




            APPENDIX A. AGENCY’S RESPONSE




U.S. Department of Labor - Office of Inspector General Report No. 03-99-006-03-315                  Page 24
